Audit of NSF’s Policies on Public
   Access to the Results of
     NSF-Funded Research


    National Science Foundation
     Office of Inspector General



          February 17, 2006
            OIG 06-2-004
Introduction

In early 2005, we began an audit to determine whether NSF provides the
scientific community and the public with direct access to information resulting
from the research it funds, and how NSF could improve its dissemination policies
and practices. As we continue our work to examine whether more public
dissemination is warranted, we have identified steps the agency can take in the
near-term to improve its dissemination practices by providing the public with
access to citations of publications that result from NSF-funded research.


Background

Communicating the results of scientific research is key to furthering science and
ensuring accountability for federal research dollars. A fundamental principle
followed by NSF and other federal agencies funding basic research is that the
knowledge gained from the research should be widely disseminated in order to
validate the results and help guide future research. Communicating the results
of the research funded with federal dollars advances the bodies of knowledge;
fuels other research ideas; and helps train future scientists, engineers, and
educators. Documenting and disseminating the findings and results of federally
funded research also provides assurance to taxpayers that they have received
value for their investments in research programs and can help increase the
public’s understanding and appreciation of science and technology.

As the primary federal agency funding the nation’s science and engineering basic
research enterprise, it is important that NSF ensure that the results of these
investments are made available to both the scientific community and the general
public.


Research Information Collected by NSF

Through proposals and project reports, NSF collects a wealth of information
about the proposed research it will fund and the findings and results of these
individual research projects. It maintains various databases with this information,
yet it makes only its database of award abstracts of proposed research available
to the research community and the public through its website. NSF does not
make available to the research community or the public the extensive amount of
information it collects from final project reports, including the large number of
citations of publications resulting from the research.

We estimate, based upon a statistical sample of final project reports due to NSF
in calendar year 2003,1 that principal investigators provided NSF with over

1
 We analyzed a statistical sample of the approximately 8,900 final project reports due to NSF in
calendar year 2003. For more information on our methodology, please see Appendix B.


                                                1
40,000 publication citations; 16,000 one-time publication citations (such as
books, conference proceedings, or dissertations); and links to over 3,500
websites in their final project reports. On average, each of these reports
contained information on 4.5 publication citations. With NSF’s electronic
database of final project reports currently containing approximately 58,500
reports going back to 1995, NSF has information on over 230,000 citations.2
However, other than selected highlights and discoveries featured on NSF’s
website or in various agency reports or publications, NSF does not provide the
public with any access to this information about the publication citations or
research results contained in the reports. Instead, NSF relies on the researchers
themselves to disseminate the results by publishing their findings in peer-
reviewed journals and other publications, and by sharing information through
other means such as conferences.


Comparison with Other Federal Agencies Funding Extramural Research

NSF’s policy of not making research citations available to the public is
inconsistent with other federal research agencies. We interviewed personnel
from five other federal agencies3 that fund extramural basic science and
engineering research to determine what types of project information they
maintain, and how and to whom they disseminate that information. Like NSF, all
five agencies encourage the researchers they fund to publish their results in
scientific journals. These agencies, like NSF, collect citations of the scientific
journal articles resulting from the funded research.

However, unlike NSF, all five agencies make these citations available directly to
the public (Table 1). These citations can either be searched through a database
of citations maintained by the agency, as done by NASA, DoD/ONR, DOE, and
NIH, or searched through final technical reports made available on-line, as done
by USDA/CSREES. NASA, NIH, and DoD/ONR go a step further by providing
free access to the full-text version of some journal articles through their websites.



2
  Our results, based on final project reports, may undercount the actual number of publications
resulting from NSF-funded research for two reasons. First, principal investigators may have
provided publication citations in annual project reports that were not included in the final project
report. Second, principal investigators may have had articles accepted for publication after they
submitted their final project reports. For more information on our analysis of publication citations
and final project reports, see Appendix C.
3
  The five federal science agencies we contacted were the National Aeronautics and Space
Administration (NASA), the Department of Health and Human Services’ National Institutes of
Health (NIH), the Department of Defense’s Office of Naval Research (DoD/ONR), the Department
of Energy (DOE), and the Cooperative State Research, Education, and Extension Service at the
Department of Agriculture (USDA/CSREES). In addition to funding intramural research
conducted by their own federal employees, these five agencies, like NSF, support extramural
basic research conducted by principal investigators at colleges, universities, and other research
institutions.


                                                 2
Table 1: Extramural Research Results Available Publicly Via Agency Website
Searches

                                 Information on Results Made Available to the Public
    Agency             Abstracts     Journal   Text of Final      Full          Patent
                       of            Citations Journal Technical Conference     Information
                       Awarded                     Articles    Reports       Proceedings
                       Proposals                                             and/or
                                                                             References
    NASA                                  X           Xa            X             X                  X
    DOE                     X             X                         X             X                  X
    USDA/CSREES             X             X                         X             X                  X
    DoD/ONR                               Xb           X            X             X
    NIH                     X             X            X

    NSF                     X
a
 Copies of articles are available if they are preprints of articles written by NASA personnel or if NASA obtains copyright
permission from the publishers for the full text.
b
 Citations are only available if the full text of the article is available. This occurs in cases where the articles
are authored by DoD employees or where the award terms give the government unlimited data
rights or the author has received publisher permission to post the article.


Thus, while the federal agencies we reviewed, including NSF, collect similar
information on the findings and results of their funded research, the other federal
science agencies have done much more than NSF to share this information with
the taxpayers who provided that funding.


Public Demand for Information on Findings and Results

A demand for information about the results of federally funded research appears
to exist. For example, the websites of the other federal science agencies, which
include publication citations, experience a high volume of use by the public.
During fiscal year 2005, the DOE website with results information had
approximately 38 million user transactions, and the Defense Technical
Information Center’s public site, which includes the results of research funded by
DoD/ONR, received over 20.3 million hits. NIH’s PubMed site, which contains
only publication citations, receives approximately 2.1 million search requests per
day.

Additionally, anecdotal evidence suggests that there is a demand for NSF to
provide similar information. For example, staff within NSF stated that they
receive requests for information about the outcomes of specific research projects
from scientists and the general public. NSF’s Division of Undergraduate
Education, for example, established the Project Information Resource System to
handle these types of requests and provide the information on funded research
to interested educators. While there are no readily available statistics on the
extent to which this database is accessed, according to the program officer,
anecdotal information suggests this information provides a valuable service to
the education community.




                                                              3
Finally, in the course of our audit work, we interviewed 24 current and former
NSF officials and staff, as well as members of the National Science Board. Over
half of these individuals suggested NSF could do more to disseminate the results
of the research it funds, with some recommending providing publication citations
directly to the public through its website.

NSF, however, does not know the extent of the demand for project information
from its website. The agency tracks “hits” on the public website, yet at the time
of our audit, no one within the agency consistently tracked the access or use of
the awards abstract database, which is NSF’s primary means of providing the
public with information on individual projects. Nevertheless, given the extensive
use of other federal agencies’ websites and anecdotal information from agency
staff, it seems likely that NSF’s website incurs similar demand.


What Should Be Done

We are continuing audit work to assess the demand for and feasibility of NSF
implementing additional practices to disseminate the findings and results of the
research it funds. Nevertheless, in the interim, NSF has an opportunity to
quickly, and at a reasonable cost, provide much more information on research
results directly to the public. By adding or otherwise linking the listing of citations
submitted by principal investigators in their final project reports to the award
abstracts already available on NSF’s public website, NSF can quickly and easily
share with fellow researchers and the public the knowledge and outcomes of
NSF’s investment in basic research. An interested party, after searching the
awards abstract dataset on NSF’s website, would be able to obtain a summary of
the proposed research along with the citations of documents resulting from that
work. (See Appendix D for flow chart.) With this information in hand, the user
could search for the referenced sources to obtain the actual published articles or
documents.

Combining award abstracts and publication citations would benefit scientists and
the general public. By using its existing informational resources and
infrastructure, NSF would assist principal investigators in sharing the results of
their research, in accordance with the agency’s current dissemination policy. In
addition, such information would provide the public with a record of some of the
products resulting from each of the research projects the agency funds.

Additionally, these benefits can be derived at a reasonable cost to the agency.
NSF staff indicates that linking the award abstracts database to publication
citations would require a minimal investment in infrastructural change. No
additional personnel resources would be needed to review the documents
because NSF program officers already prepare the award abstracts, principal
investigators already provide the citations data, and program officers already
review and approve the final project reports.



                                           4
Recent Developments

Providing publication citations with the currently available award abstracts would
be a useful dissemination practice for NSF. However, the ability to provide this
information is dependent on having both sets of data available. Current
activities, both internal and external to NSF, could negatively impact NSF’s ability
to make publication citations available to the public.

First, NSF is currently undertaking a review of the information collected in final
project reports to determine ways to reduce the time it takes principal
investigators to complete these reports. Based on surveys of principal
investigators regarding filing annual project reports, NSF estimates that it
currently takes principal investigators about 17 hours to complete an annual
project report. While 89 percent of the principal investigators surveyed stated
that the time required to prepare an annual project report was reasonable, some
principal investigators indicated concerns about the information collected and the
reporting format, including the current format used for entering publication
citations. Based upon these comments about annual project reports, NSF staff is
now in the process of developing recommendations to NSF management to
streamline the format of final project reports. They have indicated to this office
that these recommendations could include eliminating the system of entering
citation data into individual data fields or eliminating entirely the requirement to
provide NSF with publication citations.

Second, the National Science and Technology Council’s Research Business
Models Subcommittee4 is developing a proposal to establish a common format
for interim progress reporting for all Federal research agencies (at NSF, these
are the annual project reports). The underlying reason for this change is that
variations in reporting formats across agencies can increase the administrative
effort and costs for recipients of Federal awards and make it difficult to compare
research programs across the government. Once the interim progress reporting
format is finalized, the Subcommittee plans to examine the feasibility of using this
same format for final reports.

The Office of Science and Technology Policy and the Office of Management and
Budget plan to propose for public comment a standard format for interim
progress reporting. Draft documents indicate the proposed new format would
contain two mandatory categories to address accomplishments and changes to
the research, while reporting on publication citations, conference papers, and


4
  The Subcommittee’s objectives include facilitating a coordinated effort across Federal agencies
to address policy implications arising from the changing nature of scientific research, and
examining the effects of these changes on business models for the conduct of scientific research
sponsored by the Federal government.


                                                5
presentations would be optional.5 The proposed format is expected to be
published for public comment in the near future. After the proposed government-
wide format is finalized, NSF will have to make decisions about which, if any, of
the optional sections it will include in its reporting format. Final agency decisions
could be implemented by mid-2006.

These efforts to standardize interim and, in the future, final project reports directly
affect NSF’s efforts to streamline its current final project reports. As changes are
made, either by government-wide mandates or NSF management decisions,
NSF must be very thoughtful when considering what information it will continue to
collect and what information it will no longer require. In reviewing its options,
NSF must not only consider the time spent by principal investigators to complete
the reports, but also consider what information is important to the agency in order
to manage the various projects and what information should be provided to the
public to ensure transparency and accountability of public funds.


Conclusion

NSF relies on its award abstracts database to inform interested parties outside of
NSF, including the research community and the public, about the proposed
research NSF has selected to fund. Yet NSF does little to inform interested
parties about the findings resulting from this research. Instead, NSF relies on the
researchers themselves to disseminate information about their work through
peer-reviewed publications and other means, such as professional conferences
or meetings, or informal requests to the NSF program officer or the principal
investigator. Such dissemination methods do not easily reach all interested
parties, such as students and educators outside of the scientific community.

NSF is in a unique position of possessing both proposals of research work as
well as listings of the publications resulting from that work. It has the opportunity
to immediately improve its dissemination practices by adding these publication
citations to its award abstracts database. Such actions on the part of the agency
would help inform scientists and the public about what publications resulted from
NSF’s research investment. Similarly, it would also be useful to know which
projects did not result in any publications. These steps would also provide
transparency and accountability to the public and Congress by providing a public
record of what resulted from the research funded with public dollars.
Furthermore, the cost to the agency of undertaking this change would be minimal
when compared to the billions of federal research dollars NSF awards each year.

NSF must also give serious consideration to its current discussions regarding the
basic policy of collecting publication citations. Eliminating a requirement for this

5
  The other two proposed optional categories are Participants (other individuals and organizations
involved in the project) and Impact (how the project has contributed to such things as other
disciplines or technology transfer).


                                                6
information would severely undermine NSF’s ability to ensure that principal
investigators are publishing the results of their research, and that it has
effectively invested taxpayers’ dollars.


Recommendations

We recommend that the Deputy Director, NSF:

   1. Make publication citations publicly available by adding the citations to the
      award abstracts database. By leveraging its current informational
      resources and infrastructure, the agency will be able to provide the public
      with a record of some of the products resulting from each of the research
      projects the agency funds. It will also provide another means of sharing
      sources of research results with other researchers and the public.

   2. In conjunction with efforts to revise and streamline its final project report
      format and implement a new standardized interim progress report format,
      NSF should continue its current policy requiring principal investigators to
      submit publication citations resulting from NSF-funded research. Citations
      play a critical role in NSF’s ability to determine if the cornerstone of its
      dissemination policy – encouraging principal investigators to publish the
      results of their research – is being implemented. Collecting citation
      information helps the agency ensure that researchers are held
      accountable for the federal funds they receive.



Agency Response

NSF agreed with our findings and recommendations. Appendix A contains the
agency’s response in full.




                                        7
Appendix A: Agency Response




                         8
9
Appendix B: Objective, Scope and Methodology
The objective of our audit is to determine whether NSF provides the scientific
community and the public with direct access to information resulting from the
research it funds, and if not, how it could improve its dissemination policies.

We completed a variety of audit steps involving NSF and other federal agencies
funding basic research. We reviewed current and previous NSF policies, and
interviewed current and former members of the National Science Board and
appropriate agency officials and program managers. In addition, we met with
personnel from the five other federal agencies that provide the most funding for
extramural scientific research to colleges and universities:
    • U.S. Department of Energy’s Office of Science;
    • Department of Health and Human Services’ National Institutes of Health;
    • National Aeronautics and Space Administration;
    • Department of Defense’s Office of Naval Research; and
    • U.S. Department of Agriculture’s Cooperative State Research, Education
        and Extension Service.

We interviewed officials and reviewed information available on each of these
agencies’ public websites; however, we did not assess the adequacy of these
agencies’ policies and activities nor did we test the completeness of the
information collected by the agencies. We also interviewed other federal and
non-federal professionals with knowledge of scientific dissemination policies and
practices.

To obtain an estimate of how much information NSF collects on the findings and
results of the research it funds, we analyzed a statistical sample of the 8,946 final
project reports that were due to NSF during calendar year 2003. We selected a
random sample of these reports using a 95 percent confidence interval with an
error rate of +/- 5 percent. We counted the number of publications, books, and
websites cited in each of the 3616 final project reports in the resulting statistical
sample and then projected the total number of such documented research results
to the universe of final project reports for 2003. We did not differentiate between
peer-reviewed journals and documents that were not peer reviewed.

We conducted our work between February and September 2005 in accordance
with generally accepted government auditing standards.




6
 The original sample size contained 368 final project reports, but the random number generator
pulled only 361 unique project numbers, resulting in 7 duplicates that were excluded from the
sample.


                                              10
Appendix C: Results of Analysis of Publication Citations
Following the methodology described in Appendix B, we obtained a statistical
sample from the 8,946 final project reports that were due to NSF during calendar
year 2003. We counted the number of publications, books, and websites cited in
each of the final project reports we sampled. We then projected the total number
of such documented research results to the universe of final project reports for
2003.

We found that principal investigators reported publishing or presenting in some
fashion the findings and results of their research in about 80 percent of the NSF-
funded research projects in our sample. We projected that, for the approximately
8,900 final project reports due in calendar year 2003, principal investigators
provided over 40,000 publication citations; 16,000 one-time publications (such as
books, conference proceedings, or dissertations); and links to over 3,500
websites.

Of the 20 percent of awards that did not report publications to NSF, about half
(10 percent of the total sample) were for work where publications would not be
expected, such as grants for equipment or conferences. Of the remaining 10
percent, which were research awards where publication would be expected, 6
percent reported no publications, and NSF had not received final project reports
for the remaining 4 percent.




                                        11
Appendix D: Option for NSF to Link Award Abstracts with
Publication Citations


    New Annual or
     Final Project
   Report submitted
  by PI, approved by
          PO




                                   Citations in
                                      report
      Did PI submit                                     Award Abstract
                                  automatically
 citations in Fastlane's   Yes
                                 inserted at end
      FPR format?
                                  of each award
                                     abstract




          No




                                                      Citations stored in
                                                      database; Can be
       Citations
                                                   searched through NSF's
     converted to
                                                        public website
      Fastlane's
        format




                                                     User directed to more
                                                   information; public record
                                                          established




                                     12
